    DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                  Region IX
                                                                                  Office of Audit Services
            29                                                                    90 - t Street, Suite 3-650
                                                                                         h

                                                                                  San Francisco, CA 94103



Report Number: A-09-09-00056

Mr. Toby Douglas
Chief Deputy Director of Health Care Programs
California Department of Health Care Services
1501 Capitol Avenue, MS 0002
Sacramento, California 99859-7413

Dear Mr. Douglas:

Enclosed is the u.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of Medicaid Credit Balances at Scripps Memorial
Hospital Encinitas as of December 31, 2008." We will forward a copy of this report to the HHS
action official noted below.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS
action official. Please refer to report number A-09-09-00056 in all correspondence.

                                               Sincerely,

                                        ~~d~
                                              Lori A. Ahlstrand
                                              Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





          REVIEW OF

  MEDICAID CREDIT BALANCES

    AT SCRIPPS MEMORIAL

     HOSPITAL ENCINITAS

   AS OF DECEMBER 31, 2008





                    Daniel R. Levinson

                     Inspector General


                        May 2009

                      A-09-09-00056

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments ofHHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OlG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OlG's internal operations. OCIG represents OlG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, resulting in an overpayment. One
example is when a provider receives payments for the same services from the Medicaid program
and another third-party payer. In such cases, the provider should return the overpayment to the
Medicaid program, which is the payer of last resort.

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: "... when an
overpayment is discovered ... the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. ... [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made."

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions require
providers to report outstanding credit balances as part of their annual cost report submissions and
refund any overpayments when the State agency settles the cost reports.

Scripps Memorial Hospital Encinitas (Scripps Encinitas), part of the Scripps Health system, is an
acute care hospital located in Encinitas, California. Scripps Encinitas reported that it was
reimbursed by the State agency approximately $4.8 million for Medicaid services during
calendar year 2008.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in
Scripps Encinitas' accounting records as of December 31, 2008, for inpatient and outpatient
services represented overpayments that Scripps Encinitas should have returned to the Medicaid
program.
SUMMARY OF RESULTS


As of December 31, 2008, Scripps Encinitas' Medicaid credit balances included immaterial
overpayments that had not been returned to the Medicaid program. As a result of our review,
Scripps Encinitas returned the overpayments to the State agency as of February 13,2009.
Therefore, we are not making any recommendations to the State agency.




                                              11
                            TABLE OF CONTENTS




INTRODUCTION                                     1


    BACKGROUND                                   1

        Medicaid Program                         1

        Federal and State Requirements           1

        Scripps Memorial Hospital Encinitas      1


    OBJECTIVE, SCOPE, AND METHODOLOGY            2

         Objective                               2

         Scope                                   2

         Methodology                             2


RESULTS OF REVIEW                                3





                                       111
                                           INTRODUCTION


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, resulting in an overpayment. One
example is when a provider receives payments for the same services from the Medicaid program
and another third-party payer. In such cases, the provider should return the overpayment to the
Medicaid program, which is the payer of last resort.

Federal and State Requirements

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: "... when an
overpayment is discovered ... the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. ... [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made."

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions require
providers to report outstanding credit balances as part of their annual cost report submissions and
refund any overpayments when the State agency settles the cost reports. Providers are required
to submit their annual Medicaid cost reports within 150 days after the end of the provider fiscal
year. Pursuant to section l4l70(a)(l) of the California Welfare and Institutions Code, the State
agency has 3 years after the provider's fiscal year or the date of the submission, whichever is
later, to audit or review the cost report.

Scripps Memorial Hospital Encinitas

Scripps Memorial Hospital Encinitas (Scripps Encinitas), part of Scripps Health system, is an
acute care hospital located in Encinitas, California. Scripps Encinitas reported that it was
reimbursed by the State agency approximately $4.8 million for Medicaid services during
calendar year 2008.




                                                 1

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in
Scripps Encinitas' accounting records as of December 31, 2008, for inpatient and outpatient
services represented overpayments that Scripps Encinitas should have returned to the Medicaid
program.

Scope

Scripps Encinitas' inpatient and outpatient accounting records contained 23 Medicaid accounts
with credit balances totaling $29,353 as of December 31, 2008. We reviewed 15 outpatient
accounts totaling $20,622 and 8 inpatient accounts totaling $8,731. Of the 23 accounts,
6 included Medicaid overpayments due to the State agency.

Our objective did not require an understanding or assessment of the complete internal control
system at Scripps Encinitas. We limited our review of internal controls to obtaining an
understanding of the policies and procedures that Scripps Encinitas used to review credit
balances and report overpayments to the State Medicaid program.

We performed our fieldwork at Scripps Health's corporate office in San Diego, California, from
February through May 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed Federal and State requirements pertaining to Medicaid credit balances and
      overpayments;

   •	 reviewed Scripps Health's policies and procedures for reviewing credit balances and
      reporting overpayments to the State agency;

   •	 reconciled Scripps Encinitas' December 31, 2008, total credit balances to the accounts
      receivable records and reconciled the accounts receivable records to the trial balance;

   •	 identified Scripps Encinitas' Medicaid credit balances from its accounting records and
      reconciled the Medicaid credit balances to Scripps Encinitas' Medicaid credit balances
      report as of December 31, 2008;

   •	 reviewed Scripps Encinitas' Medicaid claim forms and remittance advices, patient
      accounts receivable detail, and additional supporting documentation for each credit
      balance account; and

   •	 coordinated our audit with State agency officials.


                                                2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objective.

                                   RESULTS OF REVIEW

As of December 31, 2008, Scripps Encinitas' Medicaid credit balances included immaterial
overpayments that had not been returned to the Medicaid program. As a result of our review,
Scripps Encinitas returned the overpayments to the State agency as of February 13,2009.
Therefore, we are not making any recommendations to the State agency.




                                               3

